Memorandum from the Office of the Inspector General



July 11, 2011

Tracy A. Flippo, MR 5K-C

REQUEST FOR FINAL ACTION – AUDIT 2010-13280 – REVIEW OF THE
TRANSMISSION LINE MAINTENANCE PROGRAM



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Scott M. Norris, Auditor, at (865) 633-7331 or
Lisa H. Hammer, Director, Financial and Operational Audits, at (865) 633-7342. We
appreciate the courtesy and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

SMN:JP
Attachment
cc (Attachment):
      Michael B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Russell C. Hardison, MR 5K-C
      Tom Kilgore, WT 7B-K
      Robin E. Manning, MR 3H-C
      Richard W. Moore, ET 4C-K
      John E. Peckinpaugh, Jr., MR 5K-C
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      OIG File No. 2010-13280
        
 


                                 Audit Report
 
Office
      of the Inspector General                               

                                 To the Vice President,
                                 Transmission Operations  
                                 and Maintenance
                                                             

 

 

 

 

REVIEW OF THE
 

 
TRANSMISSION LINE
 

MAINTENANCE
PROGRAM

 




 

 
 
 

 Audit Team                                 Audit 2010-13280
Scott M. Norris                                 July 11, 2011
Amy R. Rush
David S. Shields
Office of the Inspector General                                                 Audit Report




ACRONYMS AND ABBREVIATIONS
ALS                               Applied Line Services
ECATA                             Environmental Compliance and Awareness Training
                                  Assessment
ETAT                              Electronic Training Assessment Tool
kV                                Kilovolts
NERC                              North American Electric Reliability Council
OIG                               Office of the Inspector General
PMTM                              Project Manager for Transmission Maintenance
PSO                               Power System Operations
ROW                               Right-of-Way
RRO                               Regional Reliability Organization
TOM                               Transmission Operations and Maintenance
TSC                               Transmission Service Center
TVA                               Tennessee Valley Authority




Audit 2010-13280
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 4

FINDINGS ......................................................................................................... 6

   PREVENTIVE MAINTENANCE SCHEDULING ............................................... 6

   INSPECTION DOCUMENTATION ................................................................... 7

   CODES ON CORRECTIVE MAINTENANCE WORK ORDERS ...................... 8

   TOWER LIGHTING .......................................................................................... 9

RECOMMENDATIONS .................................................................................. 9

MANAGEMENT'S RESPONSE AND OUR EVALUATION .................. 10


APPENDIX
MEMORANDUM DATED JUNE 30, 2011, FROM TRACY A. FLIPPO TO
ROBERT E. MARTIN




Audit 2010-13280
Office of the Inspector General                                                             Audit Report


EXECUTIVE SUMMARY
Tennessee Valley Authority (TVA) owns and operates one of the largest
transmission systems in North America, serving some 9 million residents
spanning portions of seven states. The TVA transmission system is comprised
of approximately 260,000 acres of transmission rights-of-way (ROW),
15,900 circuit miles of transmission line, and 102,200 transmission line
structures. TVA's transmission system moves electric power from the generating
plants to distributors of TVA power and to industrial and federal customers
across the region. According to TVA, in fiscal year 2010 the TVA system
delivered its eleventh straight year of 99.999 percent reliability.

Ensuring the reliability of the TVA transmission system is the responsibility of
TVA's Power System Operations (PSO) organization. More specifically, PSO's
Transmission Operations and Maintenance (TOM) and Applied Line Services
organizations are responsible for the inspection and maintenance of various
aspects of the transmission system.

As part of the Office of the Inspector General's fiscal year 2010 audit plan, we
reviewed the inspection and maintenance programs for transmission lines/
structures and ROW. The audit objective was to evaluate the adequacy and
effectiveness of the programs.

Based on our review, we determined that the transmission line inspection and
maintenance program is adequate and effective. However, some potential areas
of improvement were identified. Specifically, we identified (1) instances in which
transmission lines were not assigned a preventive maintenance inspection
interval, (2) improvements that could be made to the manual and system
documentation to allow for recording of inspection results and trending of
recurring maintenance issues, and (3) improvements that could be made in
scheduling preventive maintenance inspections of tower lighting.

We recommend that the TOM organization:

     Ensure all lines are assigned a preventive maintenance inspection interval in
      Maximo.i Also, periodically reconcile all transmission locations loaded into
      Maximo to all transmission locations that have been assigned a preventive
      maintenance inspection interval in Maximo.
     Update the line maintenance manual to state that the Record of Transmission
      Line Defects form should be completed for all preventive maintenance
      inspections even if deficiencies are not identified. This would provide a trail of
      evidence that the inspection was performed and may increase the
      accountability of those performing the inspections.


i
    Maximo is IBM software that consolidates TVA's work management, supply chain, financial management,
    and corrective action program data into a single repository.
Audit 2010-13280                                                                                 Page i
Office of the Inspector General                                          Audit Report


   Emphasize to Transmission Service Center personnel that the Record of
    Transmission Line Defects form should be retained in accordance with the
    PSO Records Schedule.
   Either enforce the requirement noted in the line maintenance manual to
    submit the Record of Transmission Line Defects form to Line Maintenance or
    update the line maintenance manual to eliminate the requirement to more
    accurately reflect the process that is in place.
   Revise Maximo to require (1) the priority code field to be manually populated
    when generating a corrective maintenance work order and (2) that problem,
    cause, and remedy code fields are populated when closing a corrective
    maintenance work order.
   Implement a process to ensure tower lights are inspected at the interval
    required by the line maintenance manual.

TVA management generally agreed with our recommendations and has taken, or
is taking, actions to address these recommendations. We revised the report as
necessary based on those comments. See the Appendix for TVA's complete
response.




Audit 2010-13280                                                               Page ii
Office of the Inspector General                                                                 Audit Report


BACKGROUND
Tennessee Valley Authority (TVA) owns and operates one of the largest
transmission systems in North America, serving some 9 million residents
spanning portions of seven states. The TVA transmission system is comprised
of approximately 260,000 acres of transmission rights-of-way (ROW),
15,900 circuit miles of transmission line, and 102,200 transmission line
structures. TVA's transmission system moves electric power from the generating
plants to distributors of TVA power and to industrial and federal customers
across the region. According to TVA, in fiscal year 2010 the TVA system
delivered its eleventh straight year of 99.999 percent reliability.

Ensuring the reliability of the TVA transmission system is the responsibility of
TVA's Power System Operations (PSO) organization. More specifically, PSO's
Transmission Operations and Maintenance (TOM) and Applied Line Services
(ALS) organizations are responsible for the inspection and maintenance of
various aspects of the transmission system.

Transmission Operations and Maintenance Organization
The TOM organization is responsible for the inspection and maintenance of the
transmission lines and various structures, such as poles and towers, which
comprise TVA's transmission system. The organization's inspection and
maintenance program cost approximately $15 million in fiscal year 2010. Within
the TOM organization, there are 15 Transmission Service Centers (TSC) located
across the TVA service area. Each TSC employs one or more crews that are
responsible for performing the preventive maintenance inspections and
corrective maintenance activities.

The inspections are performed to identify defects that could cause an interruption
or an unsafe condition for employees or the public. The inspections are
executed in a variety of ways to accomplish this and are as follows:

     Foot Patrol inspections consist of walking the entire transmission line
      segment1 and visually inspecting the conductors, structures, and ROW.
     Minimal Climbing inspections consist of sounding and boring wood poles to
      identify decay and climbing structures as required to investigate potential or
      reported defects.
     Climbing inspections consist of climbing structures to perform detailed visual
      inspections for defects including sounding and boring wood poles and wood
      crossarms for decay.
     Routine Aerial inspections consist of flying the entire transmission line
      segment for visual inspection. If an item looks questionable and warrants

1
    Transmission lines are segmented because a single line may span the responsible area of more than one
    inspection crew. An inspection crew inspects the segment of a line that is within the crew's responsible
    area.
Audit 2010-13280                                                                                     Page 1
Office of the Inspector General                                                                       Audit Report


       closer inspection, the item is reported so it can be inspected by maintenance
       personnel thereafter.
      Aerial Infrared inspections consist of flying the lines with a contracted
       inspector that uses infrared sensing equipment to identify and report
       components with elevated temperatures, which may indicate a need for
       maintenance.

The inspections are performed at a specified frequency to identify the need for
corrective maintenance, to plan maintenance activities accordingly, and to
protect TVA's easement rights. In general, this frequency is based on multiple
criteria and varies based on (1) the types of structures2 and (2) the types of
feed.3 The inspection frequency is summarized in the table below. The table
represents the minimum inspection interval that is required by TOM; however,
transmission lines and structures may be inspected more often than the table
dictates. Conversely, TOM allows a grace period4 for completing the required
inspections outside of the specified frequency.

      Line Structure                 Critical           Interval             Noncritical              Interval
    Wood Pole                 Aerial Patrol             6 Mo.       Aerial Patrol                     6 Mo.
    Wood Crossarm             Climbing Inspection*      4 Yr.       Climbing Inspection               4 Yr.
                              Foot Patrol*              4 Yr.
                              Aerial Infrared           4 Yr.       Aerial Infrared                   4 Yr.
    Wood Pole                 Aerial Patrol             6 Mo.       Aerial Patrol                     6 Mo.
    Steel Crossarm            Minimal Climbing          4 Yr.       Minimal Climbing                  4 Yr.
    Epoxy Crossarm            Aerial Infrared           4 Yr.       Aerial Infrared                   4 Yr.
    Steel/Concrete Pole       Aerial Patrol             6 Mo.       Aerial Patrol                     6 Mo.
    Steel Tower               Aerial Infrared           4 Yr.       Aerial Infrared                   4 Yr.
                              Foot Patrol/Climbing      4 Yr.       Foot Patrol/Climbing              4 Yr.
    De-energized Lines        N/A                       N/A         For road crossings or other       1 Yr.
    Wood Pole                                                       areas that may be a danger
    Steel Pole                                                      to the public
    Steel Tower
    Tower Lighting -
    Monitored
    AC powered                Annual                    12 Mo.      Annual                            12 Mo.
    Solar powered             Annual                    12 Mo.      Annual                            12 Mo.
    Tower Lights-
    Not monitored             N/A                       N/A         See Section 2.10-1
    AC powered                Visual                    3 Mo.       Visual                            3 Mo.
    AC powered                Annual                    12 Mo.      Annual                            12 Mo.
    Solar powered             Visual                    6 Mo.       Visual                            6 Mo.
    Solar powered             Annual                    12 Mo.      Annual                            12 Mo.
*Note: Scheduled so that one of each inspection type is performed every two years.                      Table 1

2
    Structures can be made of wood or steel.
3
    A line may be a radial feed or dual feed. A radial feed line is the only path by which electric power can
    flow to the customers tied into that line; therefore, when a radial feed line is interrupted, the customers tied
    into that line will be without power. TOM classifies these lines as "critical." A dual feed line means there
    is more than one path by which electric power can flow to the customers tied into that line; therefore,
    when a dual feed line is interrupted, power can generally be restored through switching. TOM classifies
    these lines as "noncritical."
4
    TOM allows a grace period for the inspection that is equal to one quarter of the required interval. For
    example, if a transmission line segment is on a 48-month inspection frequency, then the grace period is
    12 months. A line inspection is not considered late until the grace period has lapsed.
Audit 2010-13280                                                                                              Page 2
Office of the Inspector General                                                                 Audit Report


The TOM Transmission Support team reviews the design of each segment of a
transmission line, considering the types of structures and types of feed, to
determine the frequency with which the line should be inspected. The team then
assigns the determined preventive maintenance inspection frequency to the line
segment in the Maximo work management system. Once the preventive
maintenance frequency has been assigned, each TSC is responsible for
scheduling and performing inspections accordingly.

Corrective maintenance needs identified during a preventive maintenance
inspection are recorded on a hard copy Record of Transmission Line Defects
form5 that is required to be retained for a period of four years after the inspection
or correction of the defect. Corrective maintenance needs for a specific job will
have a work order generated in Maximo by the TSC's Project Manager for
Transmission Maintenance (PMTM). Maximo allows for corrective maintenance
work orders to be assigned a priority code that can be used to prioritize the
corrective maintenance needs and to develop a schedule to complete these
activities. The PMTM assigns the priority code based on discussions with the
TSC crew regarding the type of corrective maintenance that is needed. Once the
corrective maintenance is completed, the PMTM changes the work order to a
"closed" status.

Applied Line Services Organization
The ALS organization is responsible for the inspection and maintenance of the
ROW through which the transmission lines and structures pass. Within the ALS
organization, there are approximately 13 specialists that are responsible for
inspecting the ROW and coordinating contract workers to perform maintenance
on the vegetation growing on the ROW. The objective of the program is to
prevent vegetation-related outages by inspecting and maintaining the
undergrowth on the ROW as well as the buffer zone and danger trees alongside
the ROW.

The audit team did not include details of the ALS processes here because they
are subject to change due to a vegetation-related outage that we detail below in
the Objective, Scope, and Methodology section of this report.

Training
The TOM and ALS organizations require each of their team members to
complete certain training courses at specified intervals. The majority of training
requirements for each fiscal year are determined through the Electronic Training
Assessment Tool (ETAT) and the Environmental Compliance and Awareness
Training Assessment (ECATA). Both the ETAT and ECATA contain a list of
questions that are answered for various crafts. If the answer to a question is
"yes" for a particular craft, then those team members are required to complete
the training course(s) that correspond to that question as listed in the ETAT and
5
    Previously, TOM utilized an automated inspection tool that rendered the paper inspection forms obsolete.
    Subsequently, TOM reverted back to paper inspection forms after a system change; however, the Line
    Maintenance Manager stated that TOM is currently testing a new automated inspection tool which, if
    approved, will once again render the paper forms obsolete.
Audit 2010-13280                                                                                     Page 3
Office of the Inspector General                                                                Audit Report


ECATA. There are also general training courses such as Continuity of
Operations and Ethics that are required in addition to the courses noted in the
ETAT and ECATA.

Defined Risks
In the July 30, 2009, Enterprise Risk Management Update, TVA defined two
risks, Significant Equipment Failures and Natural Disaster, associated with
transmission line inspection and maintenance. Significant Equipment Failures is
defined as equipment failures and forced outages due to aging lines, substations,
communications/control system equipment, and end of life issues with support
applications, infrastructure, and cyber security. TVA classified the risk as
"medium" in the short term, increasing to "high" within the next ten years. Natural
Disaster is defined as significant weather events such as widespread tornadoes,
ice storms, and flooding causing major outages and property damages and the
associated restoration of substations, transmission lines, and structures. TVA
classified the risk as "high"; however, we noted the risk to be inherent.

OBJECTIVE, SCOPE, AND METHODOLOGY
As part of the Office of the Inspector General's fiscal year 2010 audit plan, we
reviewed the inspection and maintenance programs for transmission lines/
structures and ROW. The audit objective was to evaluate the adequacy and
effectiveness of the programs.

To achieve our objective, we:

     Obtained and reviewed the TOM line maintenance manual for information
      regarding the policies and procedures applicable to transmission line
      inspections and maintenance.
     Interviewed TOM personnel, including the Transmission Support Manager,
      the Line Maintenance Manager, various TSC Managers, PMTMs, and Line
      Foremen to obtain information related to the transmission line inspection and
      maintenance processes.
     Statistically selected a sample of 49 line segments from a total line segment
      population of 3,488 in order to review the documentation of preventive
      maintenance inspections maintained by the TSCs, including the Record of
      Transmission Line Defects form.
     Visited six of seven judgmentally selected TSCs to obtain documentation for
      the sample mentioned above and to conduct aforementioned interviews. We
      obtained the documentation via e-mail for the seventh TSC. 6 There are
      15 TSCs within the TOM organization.
     Interviewed a PSO Lineman Instructor and a TOM Area Manager to obtain
      information related to the training provided to those conducting transmission
6
    We selected the TSCs based on those having the highest or second highest number of statistically
    sampled line segments in their respective areas.
Audit 2010-13280                                                                                       Page 4
Office of the Inspector General                                             Audit Report


     line inspections and maintenance. During testing, we determined there is no
     process in place for maintaining complete records of prior years' training
     requirements. As such, we were unable to perform testing to determine
     whether Linemen and ROW Specialists completed required training in prior
     years. The current fiscal year, at the time of testing, had not concluded;
     therefore, those training records were not addressed in our fieldwork.
    Interviewed the PSO Environmental Programs Manager and a TOM
     Environmental/Easement Tech to obtain information related to the
     environmental stewardship responsibilities of those conducting transmission
     line inspections and maintenance.
    Interviewed a TOM Project Control Specialist to gain an understanding of
     work orders in Maximo and to obtain electronic work order data for analysis.
    Obtained and reviewed the vegetation maintenance program for information
     regarding the policies and procedures applicable to ROW inspections and
     maintenance.
    Interviewed the ALS Manager to obtain information related to the ROW
     inspection and maintenance processes and a vegetation-related outage on a
     500 kilovolts (kV) transmission line that occurred in August 2010. Based on
     the information obtained in regard to the likelihood for process changes due
     to the August 2010 vegetation outage detailed below, the frequency and
     methods of ROW inspections and maintenance executed by the ALS
     organization were not addressed in our fieldwork.

     In August 2010, TVA experienced a vegetation-related outage on a
     transmission line that operates at 500 kV. Transmission lines that operate at
     200 kV or above are subject to a North American Electric Reliability Council
     reliability standard. The purpose of the standard is "to improve the reliability
     of the electric transmission systems by preventing outages from vegetation
     located on the transmission ROW and minimizing outages from vegetation
     located adjacent to ROW, maintaining clearances between transmission lines
     and vegetation on and along transmission ROW, and reporting vegetation-
     related outages of the transmission systems to the respective Regional
     Reliability Organizations (RRO) and the North American Electric Reliability
     Council (NERC)."7

     According to ALS personnel, in an outage such as the one TVA experienced
     in August 2010, the reliability standard requires a mitigation plan, intended to
     reduce the likelihood of future similar outages, to be submitted to the RRO; in
     TVA's case, SERC Reliability Corporation. According to ALS management,
     the mitigation plan could significantly alter the processes and procedures of
     the ALS organization as they apply to inspections and maintenance.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and

7
    Source: Standard FAC-003-1.
Audit 2010-13280                                                                 Page 5
Office of the Inspector General                                         Audit Report


perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We do not express an
opinion on TVA's internal control structure because this audit was not designed
to identify all material weaknesses in TVA's transmission line inspection and
maintenance program. Although we did not test for compliance with laws and
regulations, nothing came to our attention during the audit that indicated
noncompliance with laws and regulations.

FINDINGS
We determined that the transmission line inspection and maintenance program is
adequate and effective. Based on our review, we determined that the TOM
organization has an inspection and maintenance process that is generally
executed as designed. However, some potential areas of improvement were
identified.

Specifically, we identified:

   Twelve transmission lines that had not been assigned a preventive
    maintenance inspection interval in Maximo and therefore were not scheduled
    for inspections.
   Improvements that could be made to the manual and system documentation
    to allow for recording of inspection results.
   Trending of recurring maintenance issues using problem codes from Maximo
    not being done; however, TVA management states that failure codes in the
    System Interruption Data provide information for trending of the most serious
    recurring maintenance issues.
   Improvements that could be made with scheduling preventive maintenance
    inspections of tower lighting.

Preventive Maintenance Scheduling
The TOM line maintenance manual provides the interval with which all
transmission lines should receive a preventive maintenance inspection, and that
interval is assigned to the line in Maximo. During the course of this audit, many
TSC crews stated that they view the assigned interval in Maximo as the minimum
requirement and that they may inspect lines more often than required because
they are familiar with those that are prone to issues needing corrective
maintenance.

The audit team identified 12 transmission lines that had been loaded into Maximo
but did not have a preventive maintenance inspection interval assigned. The
12 lines were identified by reconciling the lines listed in the transmission line


Audit 2010-13280                                                             Page 6
Office of the Inspector General                                                                     Audit Report


index8 to a report provided by TOM that detailed the last inspection date
recorded in Maximo for all lines.

As previously discussed in Table 1, the Transmission Support team determines
the appropriate interval for each transmission line segment and assigns that
interval to the line in Maximo. However, the process for assigning the intervals is
manual, and these 12 lines were not assigned an interval when they were loaded
into Maximo. According to the Line Maintenance Manager, a member of the
Transmission Support team periodically performs tests for the TOM organization
to detect anomalies such as this; however, these were not identified.

Each of the 12 lines was installed between the years 2007 and 2010, which
means they are relatively new lines in TVA's transmission system. According to
the Line Maintenance Manager, these 12 lines had not missed any preventive
maintenance inspections due to their recent installation. According to the
responsible TSC, one of those lines did immediately fall into the grace period
however. Without having an inspection interval assigned, foot patrols, minimal
climbing inspections, and climbing inspections would not have been conducted
for these lines. During our audit, the Transmission Support team stated that they
subsequently assigned the appropriate intervals; however, this was not verified
by the audit team.

Inspection Documentation
According to the line maintenance manual and the PSO Records Schedule,
preventive maintenance inspections are required to be documented using a
Record of Transmission Line Defects form. The required retention of this paper
form at the TSC is a period of four years after the inspection or correction of the
defect. Deficiencies should be provided to Line Maintenance, with a follow-up
copy of the inspection report sent to Line Maintenance after all significant
corrections have been completed. Any minor defects not corrected should be
noted, initialed, and dated on the correction report.

We requested the Record of Transmission Line Defects form for 49 sampled
segments out of a total line segment population of 3,488. Forty-two, or
86 percent, of the 49 sampled segments did not have a Record of Transmission
Line Defects form on file for the most recently completed preventive maintenance
inspection. According to the Maximo data, 1 of the 42 segments was last
inspected in May 2006, which was outside PSO's four-year retention
requirement. According to the respective TSC Managers, the last inspection
date recorded in Maximo for 11 of the sampled segments, including the one
outside of the retention requirement, was prior to their tenure. Therefore, they
could not determine why the form was not on file.

According to the TSC personnel, the inspection crews did not identify any defects
in 29 of those inspections, several citing that steel structures generally do not

8
    The index is a list of all transmission lines and structures that are maintained by TOM. At the time of the
    audit, there were 919 active transmission lines in the transmission line index.
Audit 2010-13280                                                                                          Page 7
Office of the Inspector General                                          Audit Report


have defects. The audit team verified in the transmission line index that 24 of
these 29 segments contain only steel structures. Documentation of those
inspection results was not generated because the line maintenance manual only
states that a Record of Transmission Line Defects form must be completed to
report deficiencies but does not specifically state that the form must be
completed if there are no defects identified during the inspection. The absence
of this form does not have a significant impact on subsequent inspections;
however, the line maintenance manual does state that the previous inspection
report should be reviewed prior to the current inspection.

According to the Line Maintenance Manager, the inspection forms are not being
sent to Line Maintenance as the line maintenance manual requires. Prior to the
implementation of an automated inspection tool, the inspection forms were
provided as required but became obsolete with the automated system.
Subsequent to a system change, TOM reverted back to paper inspection forms
because the automated inspection tool was not compatible, and the process of
providing those forms to Line Maintenance did not commence. Recurring
maintenance issues may not be identified unless these forms are provided to
Line Maintenance.

Codes on Corrective Maintenance Work Orders
Maximo allows corrective maintenance work orders to be tagged with priority,
problem, cause, and remedy codes. The priority code represents the urgency of
the maintenance issue, whereas the problem code is representative of the
maintenance issue. A priority 1 or priority 2 is deemed essential by TOM. The
cause and remedy codes are beneficial for identifying the source of and solution
to the problem. However, TOM has not made these required fields in Maximo.

A TOM Project Control Specialist provided the audit team with work order data
for analysis, which contained 355 corrective maintenance work orders that were
dated calendar year 2010. We determined that 199, or 56 percent, of the
355 corrective maintenance work orders were not populated with a priority code.
Work orders containing priority codes deemed essential by TOM, priority 1 and
priority 2, are reviewed by area managers to determine if anything can be done
to expedite the work. However, since 56 percent of the work orders reviewed did
not have a priority code, it is difficult to determine if all work orders are being
prioritized and if all essential work orders are being reviewed.

Of the 355 corrective maintenance work orders in our analysis, we identified
171 that were considered "closed." Of those, 161, or 94 percent, were not
populated with a problem code. Based on the fact that 94 percent of the closed
work orders did not have a problem code, we did not test the cause and remedy
codes. The absence of the problem code makes trending of recurring corrective
maintenance issues more difficult. In addition, the use of the cause and remedy
codes would increase the effectiveness of the trending; however, TVA
management states that failure codes in the System Interruption Data provide
information for trending of the most serious recurring maintenance issues.
Trending of recurring maintenance issues could prove beneficial in identifying
Audit 2010-13280                                                              Page 8
Office of the Inspector General                                             Audit Report


systemic problems and provide support needed to undertake large-scale
maintenance projects.

Tower Lighting
A Federal Aviation Administration advisory circular stipulates that any temporary
or permanent structure that exceeds an overall height of 200 feet above ground
level should normally be marked and/or lighted. According to the Line
Maintenance Manager, TVA has lights on 68 structures that either meet the
200-foot criterion or are in close proximity to an aircraft landing area. According
to one TSC Manager interviewed by the audit team, a safety risk may exist with
the lighting of the TVA towers. The line maintenance manual requires a 3-, 6-, or
12-month inspection frequency on tower lights, depending on the type. However,
the TSC Manager stated that (1) tower lights are not included in Maximo to
schedule preventive maintenance inspections, and (2) there are no automated
systems to detect and warn appropriate personnel when the lights are not
functioning properly. This information was confirmed with the Line Maintenance
Manager who explained that TVA is currently pursuing a project to determine the
cost associated with equipping all tower lights with monitoring systems to detect
when the lights are not functioning properly and alarm systems to inform the
appropriate personnel in that scenario.

RECOMMENDATIONS
We recommend that the TOM organization:

   Ensure all lines have been assigned a preventive maintenance inspection
    interval in Maximo. Also, periodically reconcile all transmission locations
    loaded into Maximo to all transmission locations that have been assigned a
    preventive maintenance inspection interval in Maximo.
   Update the line maintenance manual to state that the Record of Transmission
    Line Defects form should be completed for all preventive maintenance
    inspections even if deficiencies are not identified. This would provide a trail of
    evidence that the inspection was performed and may increase the
    accountability of those performing the inspections.
   Emphasize to TSC personnel that the Record of Transmission Line Defects
    form should be retained in accordance with the PSO Records Schedule.
   Either enforce the requirement noted in the line maintenance manual to
    submit the Record of Transmission Line Defects form to Line Maintenance or
    update the line maintenance manual to eliminate the requirement to more
    accurately reflect the process that is in place.
   Revise Maximo to require (1) the priority code field to be manually populated
    when generating a corrective maintenance work order and (2) that problem,
    cause, and remedy code fields are populated when closing a corrective
    maintenance work order.


Audit 2010-13280                                                                 Page 9
Office of the Inspector General                                             Audit Report


   Implement a process to ensure tower lights are inspected at the interval
    required by the line maintenance manual.

MANAGEMENT'S RESPONSE AND OUR EVALUATION
TVA management stated that they agree with the facts found during the audit
and has taken, or is taking, the following actions to address the above
recommendations:

   The omitted preventive maintenances have been entered into Maximo for all
    12 of the active line segments identified during the audit as not having a
    preventive maintenance inspection assigned. In addition, a Maximo query
    that identifies active or not-ready line segments without preventive
    maintenance inspections assigned in Maximo will be used at least quarterly to
    review Maximo for segments with missing preventive maintenance
    inspections. Further, the line maintenance manual will be updated to require
    Transmission Support personnel to verify that preventive maintenances are
    assigned to all active line segments quarterly.
   Relevant sections of the line maintenance manual are being revised to
    require that, if no discrepancies are identified, the inspection report should be
    completed showing "no discrepancies found" and retained in accordance with
    the PSO Records Schedule.
   The line maintenance manual will be revised to include the requirement that
    inspection reports be retained in accordance with the PSO Records
    Schedule.
   The line maintenance manual is being revised to eliminate the requirement for
    the Record of Transmission Line Defects form to be sent to Line
    Maintenance.
   A request has been made to the Enterprise Asset Management Governance
    Group to require that the priority code field in Maximo be populated when
    generating a corrective maintenance work order.
   TOM will request the Enterprise Asset Management Governance Group to
    require the problem, cause, and remedy code fields in Maximo be populated
    when closing a corrective maintenance work order.
   A new location classification with the appropriate specification fields for tower
    lights is being created for population in Maximo.

The Office of the Inspector General (OIG) agrees with the actions planned and
taken by TVA management.

TVA management also provided other clarifications related to the OIG's use of
the word "assets" versus "locations" when referring to transmission line facilities
and how trending of recurring maintenance issues is currently being performed.
We revised the report, as necessary, to address these comments.
Audit 2010-13280                                                               Page 10
APPENNDIX
Page 1 of 5
APPENNDIX
Page 2 of 5
APPENNDIX
Page 3 of 5
APPENNDIX
Page 4 of 5
APPENNDIX
Page 5 of 5
